No. 20-828

 

IN THE

Supreme Court of the United States

FEDERAL BUREAU OF INVESTIGATION, ET AL., ..
Petitioners,

v.

YASSIR FAZAGA, ET AL.,
Respondents.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Respondents
contains 7,744 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 28, 2021.

Brian R. Frazelle
Counsel for Amicus Curiae
